BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of the
Nonprofit Alliance Foundation, People for the Ethical
Treatment of Animals, Association of Fundraising
Professionals, and 123 Nonprofit Organizations Listed
in Appendix as Amici Curiae in Support of Petitioners
in 19-251 and 19-255, Americans for Prosperity
Foundation v. Xavier Becerra, Attorney General of
California, and Thomas More Law Center v. Xavier
Becerra, Attorney General of California, was sent via
Next Day Service to the U.S. Supreme Court, and Next
Day e-mail service to the following parties listed below,
this 1st day of March, 2021:
John J. Bursch
Alliance Defending Freedom
440 First Street NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org
Counsel for Thomas More Law Center
Derek L. Shaffer
Quinn Emanuel Urquhart & Sullivan, LLP
1300 1 Street NW, Suite 900
Washington, DC 20005
(202) 538-8000
derekshaffer@quinnemanuel.com
Counsel for Americans for Prosperity Foundation

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I (800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
' Washington, DC 20005

Aimee Athena Feinberg
California Department of Justice
1300 1 Street
Sacramento, CA 95814
(915) 210-6003
Aimee .Feinberg@doj.ca. gov

Counsel for Xavier Becerra, in his offical capacity as
the Attorney General of California
KAREN DONNELLY

Counsel of Record

ERROL COPILEVITZ
COPILEVITZ, LAM & RANEY, P.C.

310 W. 20th Street,
Suite 300
Kansas City, MO 64108
(816) 472-9000
kdonnelly@clrkc.com
ec@clrkc.com

ROBERT S. TIGNER
THE NONPROFIT ALLIANCE

1319 F Street, NW,
Suite 800
Washington, DC 20004

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 1, 2021.

~ullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]
JOHN D GALLAGHER
r·~:iidr) iJut)l1c, State of Ohio

My Commission Expires
~ebruary 14, ?023

